Audit of Intergovernmental Service Agreement for Housing Federal Detainees Wicomico County, Maryland



Return
    to the USDOJ/OIG Home Page



Audit of Intergovernmental Service Agreement for Housing Federal Detainees
Wicomico County, Maryland
GR-30-01-006 
May 30, 2001
Office of the Inspector General

TABLE OF CONTENTS
AUDIT RESULTS
INTRODUCTION
FINDINGS AND RECOMMENDATIONS

Results of Review of Daily Rate - FY 2000
Recommendations

APPENDIX I - SCHEDULE OF DOLLAR RELATED FINDINGS

APPENDIX II - SCOPE, METHODOLOGY AND BACKGROUND